U.S. Department of the Interior
Office of Inspector General




         SPECIAL REPORT


   CASE WORK LOAD MANAGEMENT
      AT THE HEARINGS DIVISION,
  OFFICE OF HEARINGS AND APPEALS,
    DEPARTMENT OF THE INTERIOR

           REPORT NO. 96-I-1055
               JULY 1996
                 United States Department of the Interior



MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY:                                                          “Case Work
                             Load Management at the Hearings, Division, Office of
                             Hearings and Appeals, Department of the Interior”
             .
                             (No. 96-I-1055)

Attached for your information is a copy of the subject final special report. The objective
of our review, which was requested by the Director, Office of Hearings and Appeals,
was to determine whether the Hearings Division was managing its case work load in an
efficient and effective manner.

Based on our review, we identified areas where costs savings could be achieved and/or
the efficiency of case monitoring and processing could be improved as follows: (1) some
of the field offices could be consolidated; (2) clerical pools could be established to
enhance case processing; (3) the automated case tracking systems for Indian probate and
public lands cases could be enhanced; and (4) the automated Indian probate case
processing system developed by a Hearings and Appeals task force could be utilized more
fully. In addition, we believe that relocating the Office of the Director’s White Earth
Land Settlement Act office to the Twin Cities office and consolidating and relocating
certain field offices would result in cost savings of about $161,000 in the first year of
consolidation and about $747,000 per year thereafter. The Director agreed with our
recommendations to: (1) consider the results of our analysis in making any decisions
regarding the closure or consolidation of field offices; (2) establish administrative support
pools in those field offices that have more than one administrative law judge; (3) require
all field offices to use the automated Indian probate case processing system for issuing
notices and preparing decisions; and (4) implement an improved public lands case
tracking system in the field offices.

If you have any questions concerning this matter, please contact me at (202) 208-5745
or Ms. Judy Harrison, Assistant Inspector General for Audits, at (202) 208-4252.

Attachment
                                                                    E-IN-OSS-O04-96


           United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240




                              SPECIAL REPORT
Memorandum

To:       Director, Office of Hearings and Appeals

From:     Judy Harrison


Subject: Final Special Report on Case Work Load Management at the Hearings
         Division, Office of Hearings and Appeals, Department of the Interior
          (No.   96-I-1055)


                              INTRODUCTION
This report presents the results of our review of case work load management at the
Hearings Division, Office of Hearings and Appeals, Department of the Interior. The
review was initiated in response to an August 1, 1995, request from the Director,
Office of Hearings and Appeals, for us to determine whether the Hearings Division
was managing its case work load in an efficient and effective manner.

BACKGROUND

The Office of Hearings and Appeals was created in July 1970 by delegation of the
Secretary of the Interior to consolidate the various public lands hearings and appeals
functions and Indian probate hearings throughout the Department of the Interior.
Hearings and Appeals is responsible for quasi-judicial and appellate functions within
the Department and consists of the Office of the Director, the Hearings Division,
and three appeals boards: the Interior Board of Land Appeals, the Interior Board
of Contract Appeals, and the Interior Board of Indian Appeals. Administrative
judges within the three designated boards of appeal render decisions in cases
pertaining to public lands, contract disputes, and appeals from the determinations
of the Bureau of Indian Affairs. In addition, the Office of the Director renders
decisions on all appeals that are not within the jurisdiction of an established appeals
board.

Administrative law judges within the Hearings Division conduct hearings and render
decisions on cases pertaining to public and acquired lands and their resources and
to Indian probate matters. Public lands cases are diverse and include those cases
heard under various laws, such as the Mining Act of 1872, the Federal Land Policy
and Management Act of 1976, the Surface Mining Control and Reclamation Act of
1977, the Federal Oil and Gas Royalty Management Act of 1982, and the
Endangered Species Act. Although public lands cases represented only about 11
percent of the case work load as of April 30,1996, these cases generally involve more
complex issues and may take several years to complete.

Indian probate cases are less complex, with most of the preliminary work being
performed by support staff. Hearings are scheduled when a sufficient number of
cases are accumulated for the same tribe or geographical area and are held on a
reservation or at a location convenient to the interested parties. The hearings
generally last from 5 minutes to 1 hour, with the average hearing lasting 30 minutes.

For fiscal year 1995, Hearings and Appeals had a budget of about $6.8 million and
was authorized 89 full-time equivalent positions. For fiscal year 1996, Hearings and
Appeals had a budget of $7 million and was authorized 84 full-time equivalent
positions. Since Hearings and Appeals does not separate its budget between the
Hearings Division and appeals boards, we estimated that, based on historical costs,
the Hearings Division will receive about $3.2 million to conduct its activities during
fiscal year 1996.

During its initial full year of operation, in 1971, the Hearings Division maintained
12 field offices, which had 55 employees: 9 offices, with 32 employees, that
processed Indian probate cases and 3 offices, with 23 employees, that processed
public lands cases. Significant reductions have taken place since that time, and, as
of April 30, 1996, the Hearings Division had only 37 full-time equivalent positions
authorized, with 33 full-time equivalent employees on board: 1 at the Hearings and
Appeals headquarters office in Arlington, Virginia, and 32 at the eight field offices
as follows:

Office Location                                                 Attorneys           Support                Total
Albuquerque, New Mexico                                             o                 2                      3
Billings, Montana                                                   0                 1                      2
Knoxville, Tennessee                                                1                 2                      5
Oklahoma City, Oklahoma                                             0                 2                      3
Phoenix, Arizona                                                    1                 2                      4
Sacramento, California                                              0                 2                      3
Salt Lake City, Utah                                                2                 2                      7
Twin Cities, Minnesota
    Totals                                                           .

* The Phoenix office. had two administrative law judges until April 30, 1996. One judge, who was on detail from the Salt Lake
City office, retired in May 1996.




                                                            2
In addition to the above offices, an administrative judge and two support staff were
located in a separate office in Phoenix. This separate office is primarily responsible
for the White Earth Land Settlement Act of 1985 (Public Law 100-212) cases and
reports to the Office of the Director.

Until March 1995, the work load of two of the field offices (Salt Lake City and
Knoxville) consisted primarily of public lands cases, and the work load of the
remaining six offices consisted of Indian probate cases. In March 1995, Hearings and
Appeals implemented a cross-utilization plan, whereby staff in each field office
worked on both types of cases.

SCOPE OF REVIEW

Our review was conducted in response to an August 1, 1995, request from the
Director, Office of Hearings and Appeals, to determine whether the Hearings
Division was managing its case work load in an efficient and effective manner. We
limited our review to the five issues identified in the Director’s request: (1) the
average case work load of each office; (2) the use of judicial assets; (3) the
implementation of cross-utilization of administrative law judges for both probate and
public lands cases; (4) the administrative staffing of each office in terms of work load
and personnel requirements; and (5) the adequacy of equipment support.

Our review was conducted from February through June 1996 and included visits to
Hearings and Appeals headquarters office in Arlington; the Hearings Division’s
offices in Phoenix, Salt Lake City, Twin Cities, and Knoxville; and the White Earth
Land Settlement Act office in Phoenix. Our review included interviews with judges
and support staff personnel at these locations to determine their specific work
processes, accomplishments, and duties and the types of office equipment used at
each office visited. Also, we examined case work load statistics and financial,
organizational, and other documentation. In addition, we contacted the four other
Division field offices to obtain selected information.

During our survey, we concluded that we could not adequately assess the impact of
the implementation of cross-utilization of administrative law judges because of the
recency of that action but that the implementation has enabled Hearings and
Appeals to recognize the opportunity or need to address the issue of consolidation.
We also concluded that some offices needed additional administrative support, as
well as other improvements such as computer equipment and software, to improve
the timeliness of case dispositions. At our briefing with Hearings and Appeals
officials, we informed the officials that the remainder of our review would focus on
the options of consolidating field offices or of transferring work loads between offices
to achieve more efficient use of judicial assets.



                                           3
Throughout our review, we coordinated closely with Hearings and Appeals officials
to evaluate various options and alternatives for achieving cost savings and improving
the efficiency of operations, including the consolidation of field offices. Our analysis
of various options for consolidation considered several factors: (1) the work load of
each office, including the numbers and types of cases (Indian probate and public
lands); (2) the geographic location of the work load; (3) the potential cost savings
from reductions in staffing and office space; (4) additional costs for relocation and
severance pay; (5) increases in efficiency and productivity resulting from the
consolidation of support staff; and (6) concerns of Hearings and Appeals officials
regarding the impact of certain offices being closed at this time.

PRIOR AUDIT COVERAGE

Neither the General Accounting Office nor the Office of Inspector General has
issued any audit reports on the Office of Hearings and Appeals during the past 5
years.

                                  DISCUSSION
We identified several areas where costs savings could be achieved and/or the
efficiency of case monitoring and processing could be improved at the Hearings
Division as follows: (1) some of the field offices could be consolidated; (2) a clerical
pool could be established to enhance case processing; (3) the automated case
tracking systems for Indian probate and public lands cases could be enhanced; and
(4) the automated Indian probate case processing system developed by a Hearings
and Appeals task force should be utilized more fully. In addition, we believe that
relocating the Office of the Director’s White Earth Land Settlement Act office to
Twin Cities could result in additional cost savings. We estimated that consolidation
and relocation of certain field offices would result in cost savings of about $161,000
in the first year of consolidation and about $747,000 per year thereafter (see
Appendices 1 and 2).

Reorganization of Field Offices

The Departmental Manual (DM 101) requires that organizations be structured to
operate effectively and efficiently, eliminate unnecessary or excess organizational
positions, and carry out program objectives in a cost-effective manner. Also, the
Code of Federal Regulations (5 CFR, Subpart B, 351.201 (a)(l)) states that each
agency is responsible for determining the categories within which positions are
required; where they are to be located; and when they are to be filled, abolished, or
vacated. In response to recent and anticipated budget reductions throughout the
Federal Government, many agencies have initiated reorganizations in order to
continue to carry out their programs effectively at reduced funding and staffing


                                           4
levels. For fiscal year 1996, the Hearings and Appeals staffing level was reduced
from 89 full-time equivalent positions to 84 positions, which has precluded the
Hearings Division from filling the 4 positions that were vacant as of April 30, 1996.
This decrease in funded positions is occurring while the current work load and the
backlog of Indian probate and public lands cases pending are increasing significantly.
For example, from fiscal years 1991 through 1995, the number of Indian probate case
decisions increased from 2,747 to 3,090, respectively. However, the number of
backlogged Indian probate cases pending increased from 3,134 to 3,710, which
                                     l
equated to a 14.4-month backlog (Appendix 4). During that time frame, the
productivity (number of cases decided annually) of the administrative law judges
varied. For Indian probate cases, the average number of case decisions for judges
during fiscal years 1991 through 1995 ranged from 322 to 447, and the number of
judges on board decreased from 13 to 12. As of April 30, 1996, the inventory of
cases was 3,727, of which 410 were public lands cases (Appendix 3) and 3,317 were
Indian probate cases (Appendix 4). Because of the decreased staffing and increased
work load, we believe that the available resources should be utilized as effectively
and efficiently as possible.

During the initial stages of our review, Hearings and Appeals officials requested that
we include an evaluation of the field office structure. Specifically, we were requested
to examine the field office staffing levels and locations of the field offices to
determine whether consolidation of some of the offices would improve operations
and reduce costs. We worked collaboratively with Hearings and Appeals officials
throughout the review in evaluating the effects of closing specific offices. For
example, during regular meetings with Hearings and Appeals officials, the officials
provided information on the impact that closing specific offices at this time would
have on program operations, and we provided information regarding potential cost
savings and additional costs resulting from closing offices and relocating or
terminating staff. As a result of our analysis and its own program considerations,
Hearings and Appeals indicated that the following organizational changes
represented the best alternative at the present time: closing the Phoenix and Billings
offices and transferring the work load to the Salt Lake City office; closing the
Knoxville office and transferring the work load to the Twin Cities office; and
transferring the White Earth Settlement Act office in Phoenix to Twin Cities.

Based on our analysis of various factors, such as employee vacancies and the
eligibility of individuals for retirement, and on discussions with Hearings and Appeals
officials, we concluded that the consolidation of field offices would provide an
effective means of reducing program costs relating to infrastructure (such as office
rent and utilities) and administrative and equipment support while increasing

1
 This number is derived by dividing pending cases (3,710) by decided cases (3,090) and multiplying
the result (1.2 years) by 12 months. This computation assumes that pending cases can be decided at
the same rate as the cases decided in the previous year.

                                                5
productivity. Consolidating offices would allow for a greater pool of shared staff and
greater collaboration among professional staff, as well as savings on rent and
equipment requirements. Consolidation would also facilitate the scheduling of
hearings during the winter months, since the serviced areas are accessible from either
of the proposed major office locations (Salt Lake City or Twin Cities). For example,
some field offices do not hold Indian probate hearings during the winter months
because their case load is in areas subject to inclement weather. Consolidation of
field offices would result in a case load for which hearings could be held year-round.
Our analysis showed that an estimated $161,000 could be saved for the first year
(cost savings are offset in part by relocation and severance costs) and about $747,000
each year thereafter if the following changes are made at this time:

        - Closing the Knoxville office and transferring the work load to the Twin
Cities office. In our review of the Knoxville and Twin Cities offices, we concluded
that the Knoxville office, when compared with the other offices, did not have a
                                            2
sufficient case load to justify two judges and three support staff. As of April 30,
1996, the office had only 90 Indian probate cases and 88 public lands cases pending
(primarily Surface Mining Control and Reclamation Act cases). Most of the public
lands cases were awaiting action or information from the parties involved and were
not being actively worked. All of the Indian probate cases for this office involved
Indian tribes located in Michigan, which is accessible by the Twin Cities office at
airfares similar to those from Knoxville. Furthermore, the Twin Cities office is
located in a hub city for air travel, with regular flights to cities in Pennsylvania,
Kentucky, and Tennessee, where hearings on Surface Mining Act cases (which are
handled by the Knoxville office) are held. In addition, consolidating the Knoxville
office with the Twin Cities office would result in cost savings through the reduction
of costs for infrastructure and personnel. These cost savings would be partially offset
in the first year by severance costs of $25,000 for those support staff not eligible for
retirement. Transferring additional work load to the Knoxville office instead of
closing the office may increase overall productivity of the Hearings Division;
however, it would not result in any cost savings. Finally, consolidating the case loads
of the two offices into the Twin Cities office rather than the Knoxville office would
be more feasible because the Indian probate case load in the Twin Cities office is the
highest within the Hearings Division and its productivity per judge is also among the
highest in the average number of cases decided each year.

       - Closing the Billings office and transferring the work load to the Salt Lake
City office. According to Hearings and Appeals officials, the judge in the Billings
office plans to retire this fiscal year, and the legal clerk position is vacant. We
believe that this situation presents the opportunity to close the office and save the
money that would be spent on the infrastructure. The areas served by the Billings

2
    The Knoxville office had only one judge prior to February 1995.


                                                   6
office (Montana, Idaho, Wyoming, and eastern Washington) are easily accessible
from Salt Lake City, and the case work load, which consists primarily of Indian
probate cases, as well as the administrative law judge position, can be transferred to
that office.

        - Closing the Phoenix office and transferring the work load to the Salt Lake
City office. Our analysis indicated that consolidating the Billings and Phoenix offices
into the Salt Lake City office would result in cost savings through the reduction of
infrastructure costs. The office in Salt Lake City can accommodate three judges and
staff, but the other offices do not have sufficient space to accommodate the required
staff after consolidation. The areas serviced by the Billings and Phoenix offices are
all easily accessible from Salt Lake City. In addition, the cost per square foot for
office space in Phoenix is $18.43, while the cost per square foot for office space in
Salt Lake City is $11.98 per square foot. The airfare from Salt Lake City to Phoenix
is only about $50 one way. By consolidating the two offices, Salt Lake City could
accommodate the serviced areas now handled by Phoenix with little increase in travel
expenses. The Salt Lake City judges would be able to travel to hearings in the
Phoenix area during the winter months and continue with the hearings in northern
areas such as Alaska, South Dakota, and Montana when the weather is warmer. In
addition, Salt Lake City has two judges, while Phoenix has only one. Also, Salt Lake
City has a significantly larger case work load (as of April 30, 1996, Salt Lake City
had 127 public lands cases and 646 Indian probate cases, and Phoenix had 26 public
lands cases and 342 Indian probate cases).

        - Relocating the White Earth Land Settlement Act office in Phoenix to the
Twin Cities office. An administrative judge from the Office of the Director, whose
principal responsibilities relate to resolving issues under the White Earth Settlement
Act, is located in Phoenix. The Twin Cities office, however, is the field office closest
to White Earth tribal lands, which are also in Minnesota. This transfer of functions
would allow for savings on costs for infrastructure, provide more effective resolution
of Settlement Act issues, and preclude extensive travel. Also, according to Hearings
and Appeals officials, the transfer would allow for utilization of the incumbent’s legal
skills in support of public lands cases handled by the Twin Cities office.

Our analyses of the other Hearings Division field offices are summarized as follows:

       - Most of the work load of the Sacramento office is in the Northwestern
states and could be consolidated effectively with the Salt Lake City office, with
savings in infrastructure costs and minimal increases in travel costs. However,
Hearings and Appeals officials said that the Sacramento judge plans to retire within
the next 5 years and expressed concern that closing the Sacramento office at this
time would negatively impact productivity.



                                           7
       - The Oklahoma City office is centered among the tribes it services, and its
travel costs and office rental costs are the lowest of the eight field offices.
Therefore, we do not believe that significant cost savings would be achieved by
closing the office at this time.

       - The Albuquerque office serves the largest Indian tribe, the Navajo Nation.
According to Hearings and Appeals officials, special language skills are required to
hear probate cases involving the tribe members, and the office currently utilizes one
of its support staff as an interpreter during some hearings.         In addition, the
Albuquerque office had the second largest public lands case work load, which,
according to Hearings and Appeals officials, consists primarily of local potash cases
that are scheduled for hearings in Albuquerque and that may not be resolved for
several years.

We concluded that the consolidation of offices would not adversely affect the ability
of Hearings and Appeals to adequately serve the Indian tribes on matters relating
to Indian probate or to the White Earth Settlement Act, or result in a significant
increase in travel costs. Most of the tasks required to bring a probate case to
hearing and to draft a decision are not dependent on being near a Bureau of Indian
Affairs office and are mainly administrative in nature. These tasks include reviewing
the case files submitted by the Bureau for completeness, following up with the
Bureau to obtain missing information, scheduling hearings, and preparing and
sending hearing notices to interested parties. Therefore, a paralegal and a legal clerk
could perform most of the work at any location that provided adequate airline
service to locations where the probate case hearings would be held. Also, as
discussed in the Administrative Staff section of this report, consolidating the offices
would allow Hearings and Appeals to establish administrative support staff pools,
which would increase the efficiency of case processing. Accordingly, Indian probate
cases would be expedited, and the services to the beneficiaries of Indian estates
would be enhanced.

In addition, we noted that 76 (88 percent) of the 86 hearing sites required overnight
travel. We concluded that the additional travel costs would involve only incremental
costs of travel from the consolidated office versus travel from the original office
location. Based on the estimated number of trips required to conduct hearings, we
believe that the increased costs related to travel would be minimal. For example, of
the 216 cases scheduled to be heard in the Phoenix area, only 90 can be conducted
by the existing Phoenix office without overnight travel. We estimated that the 90
hearings would take about 7.5 days to complete. Accordingly, the incremental costs
to conduct the 90 hearings from the Salt Lake City office would be about $1,400
(airfare, per diem, and rental car). Since the remaining 126 hearings would require
overnight travel from either office location, the increase would be minimal for the
126 hearings.
Administrative Staff

Much of the work involved in processing Indian probate cases is administrative and,
except for conducting the hearing, is generally performed by support staff. Work
performed by the support staff includes reviewing the files submitted by the Bureau
of Indian Affairs for completeness and requesting additional information from the
Bureau, scheduling hearings, preparing notices to interested parties, and drafting the
decisions (some judges draft their own decisions). During our review, we found that
delays in processing Indian probate cases at three of the offices visited (Twin Cities,
Salt Lake City, and Phoenix) occurred primarily because of the lack of administrative
support. Specifically, hearings had been held and the judges’ decisions had been
written, but the decisions had not been processed by the administrative staff. For
example, at the time of our site visit to the Phoenix office, one judge stated that he
had 50 cases for which hearings were held in November 1995 but which were not
closed because of lack of clerical support. In addition, one judge at the Twin Cities
office stated that the primary reason for the reduction in cases decided by him and
for the case backlog was the loss of his permanent support staff from May 1994 until
January 1996. This situation occurred, in part, because support staff members,
except for staff members at the Salt Lake City office, were assigned to a specific
judge and did not provide administrative support to the other judge. Each of the
four offices we visited had two judges, and each office was also authorized to have
one paralegal and one legal clerk. We believe that for field offices which have more
than one administrative law judge, the use of administrative support staff pools
would ensure more timely processing of cases by reducing delays resulting from
periodic imbalances in work load, temporary absences, or loss of a judge’s support
staff. We also believe that productivity could be increased by ensuring that the
administrative staff (attorney, paralegal, or legal clerk) are utilized in the Indian
probate process to the greatest extent possible.

Automated Case Processing

We reviewed the automated procedures and systems for case docketing and case
processing to determine whether efficiency could be improved through the use of
standardized procedures and systems. We concluded that adequate systems existed
for both public lands and Indian probate cases, but that those systems were not being
fully utilized by all offices.

       Tracking and Processing Indian Probate Cases. The software system that was
developed by a Hearings and Appeals task force enables the field offices to maintain
Indian probate and public lands dockets, track the status of the cases, and file
monthly reports. The system also provides an automated process for preparing
notices of Indian probate hearings and preparing the actual decision document.
Although all eight field offices were using the system to maintain dockets, track the
status of cases, and file monthly reports, only the Oklahoma City, Sacramento, and

                                           9
Twin Cities offices were using the system to prepare notices and decisions.
Personnel at these three offices said that use of this system since November 1995
reduced processing time and therefore increased productivity for probate cases by
between 35 and 50 percent.

       Tracking Public Lands Cases. The public lands dockets for each field office
are submitted to the Arlington headquarters office via a monthly report. This report
is not an effective management tool because it does not include sufficient
information on the status of each case. The inclusion of case status information
would allow the field offices and the Arlington headquarters office to monitor case
progress and determine the disposition of any case. The Interior Board of Land
Appeals uses a database system that provides for the reporting of case status
information. We believe that Hearings and Appeals should consider using a similar
system in the Hearings Division’s field offices.

Recommendations

We recommend that the Director, Office of Hearings and Appeals:

       1. Consider the results of our analysis in making any decisions regarding the
closure or consolidation of field offices.

       2. Operate the administrative support staff on a pool basis in those field
offices that have more than one administrative law judge.

       3. Require all field offices to use the automated Indian probate case
processing system for issuing notices and preparing decisions.

      4. Implement a public lands case tracking system in the field offices which
would include more information on case proceedings and status to allow better
monitoring of individual cases.

The July 24, 1996, response (Appendix 5) to the draft report from the Director,
Office of Hearings and Appeals, concurred with the four recommendations.
Accordingly, the four recommendations are considered resolved but not implemented
and will be referred to the Assistant Secretary for Policy, Management and Budget
for tracking of implementation. Therefore, no further response to the Office of
Inspector General is required (see Appendix 6).




                                         10
The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all reports issued, the monetary impact of
the findings (Appendix 1), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not
been taken.



cc: Assistant Secretary for Policy, Management and Budget




                                         11
                                                              APPENDIX 1


            CLASSIFICATION OF MONETARY AMOUNTS


                                            Funds To Be
          Finding                         Put To Better Use

Reorganization:

 Year 1                                      $161,000

 Years 2 through 5
 ($747,000 per year times 4 years)           2,988,000




                                     12
                                  OFFICE OF HEARINGS AND APPEALS,
                                         HEARINGS DIVISION,
                    CONSOLIDATION CASE WORK LOAD, STAFFING, AND ESTIMATED COSTS

    Current Organization             Knoxville Twin Cities Albuquerque Oklahoma                          Salt Lake City

    Case Work Load2
       - Public Lands                       88             4             123           17          11             127         26        14        410
       - Indian Probate                     90           689             355          387         273             646        342       535      3,317

       - Judges                               2             2              1            1            1               3         2         1         13
       - Administrative                       3             4              2            2            2               5         6         2         26

    Estimated Costs4
       - Salaries & Benefits         $339,479      $390,575        $187,169 $185,043 $194,340                 $556,597 $515,656    $192,278 $2,561,137
       - Office Rent & Util.           31,137        42,434          36,542   23,818   33,858                   37,078   55,994      42,290    303,151
       - Travel                        10,102         8,327           9,141    5,053    6,214                   29,979    18,599     26,307    113,722
       - Other Services5               24,033        45,638           5,519    7,488    9,356                   61,760   26,793       5,894    186,481
       - Miscellaneous6                 4,166         5,532           5,532    5,532    5,532                    3,378     9,032      5,532     44,236
             Total




1
  The figures include the Phoenix Hearing Division office and the Director’s White Earth Settlement Act office.
2
  The figures are as of April 30, 1996.
3
  The figures include four vacancies.
4
  The estimated costs are based on fiscal year 1995 and 1996 actual costs.
5
  The figures include contractual services, such as temporary personnel and court reporting.
6
  The figures include supplies and materials, equipment, and printing and reproduction.
First Year After Reorganization
                                  Knoxville Twin Cities Albuquerque Oklahoma Billings    Salt Lake City Phoenix Sacramento    Totals
Case Work Load
    - Public Lands                      0          92         123        17         0            164         0          14        410
    - Indian Probate                    0       1,052         355       387         0            988         0         535      3,317
staffing
    - Judges                            0           4           1          1        0               3         0          1         10
    - Administrative                    0           7           2          2        0               8         0          2         21

Estimated Costs
    - Relocation/Severance          Closed $271,426            $0         $0    Closed       $314,601    Closed         $0 $586,027
   - Salaries & Benefits                0    728,992      187,169    185,043         0        680,254         0    192,278 1,973,736
   - Office Rent & Util.                0     53,044       36,542     23,818         0         39,024         0     42,290    194,718
   - Travel                             0     36,199        9,141      5,053         0         53,436         0     26,307    130,136
   - Other Services5                    0     50,202        5,519      7,488         0         67,936         0      5,894    137,039
   - Miscellaneous6                     0      6,085        5,532      5,532         0          3,716         0      5,532     26,397
         Total                          0 1,145,948       243,903    226,934                1,158,967              272,301 3,048,053
              Savings


Second Year of Reorganization
                                  Knoxville Twin Cities Albuquerque Oklahoma Billings Salt Lake City Phoenix Sacramento       Totals
Case Work Load
    - Public Lands                      o          92         123        17         0            164         0         14         410
    - Indian Probate                    0       1,052         355       387         0            988         0        535       3,317
staffing
    - Judges                            0          4            1         1         0              3         0          1          10
    - Administrative                    0          7            2         2         0              8         0          2          21

Estimated Costa
    - Salaries & Benefits                                $187,169 $185,043         $0       $680,254        $0 $192,278 $1,973,736
    - Office Rent & Util.                     53,044       36,542    23,818         0         39,024         0    42,290    194,718
   - Travel                             0     36,199        9,141     5,053         0         53,436         0    26,307    130,136
   - Other Services5                    0     50,202        5,519     7,488         0         67,936         0      5,894   137,039
   - Miscellaneous6                     0      6,085        5,532     5,532         0          3,716         0      5,532
          Total                                           243,903   226,934
               Savings
                                                          OFFICE OF HEARINGS AND APPEALS,
                                                                 HEARINGS DIVISION,
                                                           PUBLIC LANDS CASE WORK LOAD
                                                                    Case Dispositions1and Cases Pending)



                                          FY 91                    FY 92             FY 93                FY 94              FY 95                 Number
                                                   No. of                No. of             No. of              No. of              No. of         of Cases
                                   No. of          Cases     No. of      Cases  No. of      Cases   No. of      Cases   No. of      Cases          Pending
                                    Case          Pending     Case      Pending  Case      Pending   Case      Pending   Case      Pending           as of
    Field Office                Dispositions      at FYE2 Dispositions at FYE Dispositions at FYE Dispositions at FYE Dispositions at FYE          4/30/96

    Arlington, VA 3                  18               o         0                      o           o         o          0           o          0       o
    Albuquerque, NM     4
                                      0               o         0            0         0           0         0          0           1        109     123

    Billings, MT   4
                                      0               0         0            0                     0         0          0           0          8       11

    Knoxville, TN                    81             125       137          102        71         132        86        122         54         105      88

    Oklahoma City, OK       4
                                      0               0         0            0         0           0         0          0           1         19       17

    Phoenix, AZ 4                     0               0        0             0         0           0         0          0         44         91       26

    Sacramento, CA4                   0               0        0             0         0           0         0          0           0          8      14

    Salt Lake City, UT5             137             136      157           61        156         135       144        131        153         149     127

    Twin Cities, MN 4                                                                —0          —0        —0          —0                             —4
          Total


1
  Case dispositions include cases decided and dismissed.
2
  Fiscal year end.
3
  The Arlington field office closed in March 1991.
4
  These offices handled only Indian probate hearings until 1995.
5
  The Salt Lake City office had three administrative law judges until May 1995. when one of the judges was detailed to the Phoenix office.
                                                   OFFICE OF HEARINGS AND APPEALS,
                                                          HEARINGS DIVISION,
                                                   INDIAN PROBATE CASE WORK LOAD


                              FY 91          FY 92          FY 93          FY 94          FY 95
                                  No. of         No. of         No. of         No. of         No. of Avg. No.    Avg. No.
                         No. of Cases No. of Cases No. of Cases No. of Cases No. of Cases Judges at Cases-Decided No. of Cases
                          Cases Pending Cases Pending Cases Pending Cases Pending Cases Pending Field Office per Judge for      Pending
    Field Office         Decided at FYE1Decided at FYE Decided at FYE Decided at FYE Decided at FYE Each Year 5-Year Period as of 4/30/96

    Albuquerque, NM        268     224      276       519      387       458      266       508      414       366         1             322              355

    Billings, MT           292     364      360       342      560       308      350       370      313       341         1             375              273

    Knoxville, TN                    --       ..        --       --        .-       --        --       10      137         1              .- 2             90

    Oklahoma City, OK      305     331      379       290      274       291      357       351      384       421         1             340              387

    Phoenix, AZ            304     286      346       255      365       213      324       353      330       317         23            334              342

    Rapid City, SD         456     385      551       373       1934     493      3054                 .-       - - 4      1             376               . - 4



    Sacramento, CA         473    770       425      442       405       525      429      627       503      700          1             447              535

    Salt Lake City, UT      --       --     106       157      195       173      204      446       313      471         --5              - - 5         6465

    Twin Cities, MN        649    774       732                706      1043      709     1315       823                   2             362

                          2747


1
  Fiscal year end.
2
  A statistic is not presented because, although both judges were assigned probate cases, only one judge held hearings and rendered decisions. In addition, probate
work did not start until the implementation of work load cross-utilization. The April 30, 1996, pending cases are for two judges (70+20 cases). -
3
  Until the implementation of the cross-utilization plan, the Phoenix office operated with one judge. A second judge, detailed to the Phoenix office in May 1995,
held some hearings but did not decide any cases during fiscal year 1995. The second judge retired in May 1996.
4
  Rapid City case statistics for 1993 and 1994 are not representative because there was a turnover of judges in 1994 and the Rapid City office closed in June 1994.
5
  Statistics are not presented because the number of judges working on probate varied from one in 1992 and 1993 to three in portions of 1994 and 1995. In addition,
judges divided work between probate and public lands cases. The 646 pending cases are for two judges (309 and 337 cases).
                                                             APPENDIX 5
                                                             Page 1 of 2

             United States Department of the Interior




Memorandum

To :

From:

Subject :




          2. Relocate the administrative judge position in the
Phoenix office to the Twin Cities office.
          3 . Evaluate, after the initial consolidation of
offices, the need for further consolidation.
          4 . Operate the administrative support staff on a pool
basis in those field offices that have more than one administra-
tive law judge.
          5. Require all field offices to use the automated
Indian probate case processing system for issuing notices and
preparing decisions.
          6. Implement a public lands case tracking system in
the field offices which would include more information on case
proceedings and status to allow better monitoring of individual
cases.




                                17
                                                          APPENDIX 5
                                                          Page 2 of 2



Please also be advised that, upon review, OHA is in concurrence
with the cost savings of about $161,000 in the first year of
consolidation, and about $747,000 per year thereafter- OHA
further agrees that these funds will be put to better use.
Specifically, OHA senior management has determined that those
funds will be used to address other problem areas throughout OHA
so that the overall mission of the office can be accomplished
more effectively. We recognize that OHA must respond to the
steady and continuous reduction in funding for full-time
equivalent (FTE) positions. In that regard, OHA staffing has
been reduced successively from 104 FTE’s in 1989, to 100 FTE’s in
1991, to 89 FTE’s in 1995, and to 84 FTE’s in 1996. Thus, OHA
will transfer and/or deploy personnel, as needed, throughout the
office as a result of the findings and recommendations in the
OIG’s Special Report.
OHA has developed a plan of action to implement the Special
Report’s recommendations. This Implementation Plan shall be
discussed with Bonnie R. Cohen, Assistant Secretary, Policy,
Management and Budget, and Brooks Yeager, Deputy Assistant
Secretary for Policy.
The Implementation Plan indicates that James P. Terry, Deputy
Director, and Louise T. Curtis, Administrative Officer, will be
directly responsible for carrying out all aspects of the plan.
In addition, all aspects of the Implementation Plan will be
completed on or before August 1, 1996.
In conclusion, on behalf of the OHA, I would like to extend my
appreciation to the Audit Team who conducted this review. Their
issues, and providing cogent analyses and recommendations are
most appreciated.




                               18
                                                             APPENDIX 6


       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference              Status                Action Required


      1-4                Resolved;          No further response to the Office
                         not implemented.   of Inspector General is required.
                                            The recommendations will be
                                            referred to the Assistant
                                            Secretary for Policy,
                                            Management and Budget for
                                            tracking of implementation.




                                   19
               ILLEGAL OR WASTEFUL ACTIVTIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1550 Wilson Boulevard                                  1-800-424-5081 or
Suite 402                                              (703) 235-9399
Arlington, Virginia 22210

                                                       TDD for hearing impaired
                                                       (703) 235-9403 or
                                                       1-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7279 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers:
 1-800-424-5081
 TDD1-800-354-0996

FTS/Commercial Numbers:
 (703) 235-9399
 TDD (703) 235-9403

 HOTLINE
1550 Wilson Boulevard
Suite 402
